Audit Report




OIG-10-007
Audit of the Federal Financing Bank’s Fiscal Years 2009 and
2008 Financial Statements


November 12, 2009




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220


                                              November 12, 2009
     OFFICE OF
INSPECTOR GENERAL




            MEMORANDUM FOR SECRETARY GEITHNER

            FROM:                  Eric M. Thorson
                                   Inspector General

            SUBJECT:               Audit of the Federal Financing Bank’s Fiscal Years 2009 and
                                   2008 Financial Statements


            I am pleased to transmit the attached audited Federal Financing Bank’s (FFB)
            financial statements for fiscal years 2009 and 2008, as required by the
            Government Corporation Control Act.

            DISCUSSION:

            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the financial
            statements of FFB as of September 30, 2009 and 2008 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report on Financial Statements;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                •   the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;
                •   no matters involving internal control and its operations that are considered
                    material weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.
Page 2

KPMG LLP also issued a management letter dated November 9, 2009, discussing a
matter involving internal control over financial reporting and its operation that was
identified during the audit but was not required to be included in the auditors’
reports.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated November 9, 2009, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 622-1090, or a
member of your staff may contact Marla A. Freedman, Assistant Inspector General
for Audit, at (202) 927-5400.

Attachment

cc:   Richard Gregg
      Vice President, FFB
     FEDERAL FINANCING BANK
           Financial Statements

       September 30, 2009 and 2008

(With Independent Auditors’ Report Thereon)
                                      FEDERAL FINANCING BANK


                                             Table of Contents



                                                                            Page

Management’s Discussion and Analysis                                          1

Independent Auditors’ Report on Financial Statements                          6

Financial Statements                                                          8

Notes to Financial Statements                                                11

Other Supplementary Information – Schedule 1                                 23

Independent Auditors’ Report on Internal Control over Financial Reporting    24

Independent Auditors’ Report on Compliance and Other Matters                 26
                                       FEDERAL FINANCING BANK
                                    Management’s Discussion and Analysis
                                         September 30, 2009 And 2008



Introduction

The Federal Financing Bank (the Bank) is a government corporation under the general supervision and direction
of the Secretary of the Treasury. The Congress created the Bank in 1973, at the request of the U.S. Department of
the Treasury (Treasury). The Bank actively borrows from Treasury and lends to Federal agencies and private
borrowers that have Federal guarantees. The Bank also has a debt obligation to the Civil Service Retirement and
Disability Fund.

Mission

The mission of the Bank is to reduce the costs of Federal and federally assisted borrowings, to coordinate such
borrowings with the Government’s overall fiscal policy, and to ensure that such borrowings are done in ways that
least disrupt private markets. To accomplish this mission, the Bank exercises its broad statutory authority to
purchase obligations issued, sold, or guaranteed by Federal agencies.

Objectives

The Bank was formed to be the vehicle through which Federal agencies finance programs involving the sale or
placement of credit market instruments, including agency securities, guaranteed obligations, participation
agreements, and the sale of assets. This principle is applied in a manner consistent with the Federal Financing
Bank Act of 1973 (12 U.S.C. 2281 et seq.) and its legislative history. Guaranteed programs entailing large
numbers of relatively small loans in which local origination and servicing are an integral part of the program are
excluded.

The Bank makes funds available to Federal agencies and to guaranteed borrowers in accordance with program
requirements. The Bank is capable of providing a lending rate for any amount required and for nearly any
maturity. The rates charged by the Bank for terms such as prepayment provisions, forward interest rate
commitments, and pass-through of service charges are applied consistently for all borrowers.

The lending policy of the Bank is flexible enough to preclude the need for any accumulation of pools of funds by
agencies. This does not exclude the maintenance of liquidity reserves for those agencies that have such a need. In
no case will funds provided by the Bank be invested in private credit instruments or be used to speculate in the
market for public securities.

Organizational Structure

The Bank is subject to the general supervision and direction of the Secretary of the Treasury. The Board of
Directors is comprised of the incumbents of the following Treasury offices: the Secretary of the Treasury, who as
provided by law, is the Chairman; the Deputy Secretary; the Under Secretary for Domestic Finance; the General
Counsel; and the Fiscal Assistant Secretary.

The officers are incumbents of the following Treasury offices (corresponding Bank positions are in parentheses):
the Under Secretary for Domestic Finance (President); the General Counsel (General Counsel); the Assistant
Secretary for Financial Markets (Vice President); the Fiscal Assistant Secretary (Vice President); the Deputy
Assistant Secretary for Government Financial Policy (Vice President and Treasurer); and the Director, Office of
Federal Lending (Secretary and Chief Financial Officer). A delegation by the Bank President authorizes any
Bank Vice President, in consultation with any other Bank officer, to exercise the powers of the Presidency.

                                                        1                                            (Continued)
                                       FEDERAL FINANCING BANK
                                     Management’s Discussion and Analysis
                                          September 30, 2009 And 2008



The staff of the Bank is organized into three units: loan administration, accounting, and computer support. The
loan administration and accounting managers and the Chief Information Officer (CIO) report to the Chief
Financial Officer (CFO). The loan administration manager is responsible for the loan administration unit, which
includes the duties and responsibilities associated with credit analysis, loan origination, loan structuring, and
customer service. The accounting manager heads a team of professionals responsible for loan disbursements,
repayments, accounting, and financial reporting. The CIO is responsible for a team of information systems
professionals and contractors that conduct in-house software development and maintain the Bank’s Oracle-based,
mission-critical enterprise application. That application provides systems support for the loan administration and
accounting functions.

Loan Programs Activity

Title XVII of the Energy Policy Act of 2005 created a loan guarantee program to be administered by the
Department of Energy (DOE) for innovative technologies. The Bank provides financing commitments for the
loan guarantee programs by entering into a Program Financing Agreement with the DOE. The Bank provided
funding for $21,380 thousand of the DOE commitments during the fourth quarter of fiscal year 2009. Congress
has authorized $42,500,000 thousand of loan guarantees for the Title XVII loan guarantee program.

The Secretary of Energy is authorized to issue loans under Section 136 of the Energy Independence and Security
Act of 2007, as amended by section 129 of Division A of the Consolidated Security, Disaster Assistance, and
Continuing Appropriations Act of 2009, through the Advanced Technology Vehicles Manufacturing Loan
Program. Under the program, the Secretary of Energy may make loans to finance automobile and automobile part
manufacturers for the cost of reequipping, expanding, or establishing manufacturing facilities in the United States
to produce advanced technology vehicles or qualified components, and for associated engineering integration
costs. In fiscal year 2009, the Bank entered into a note purchase agreement that commits the Bank to purchase
two notes issued by the Ford Motor Company backed by the full faith and credit of the United States by the
Secretary of Energy. The maximum principal amount of the notes is $5,937,000 thousand with
$886,300 thousand funded in fiscal year 2009.

In fiscal year 2009, the Bank entered into a memorandum of understanding with the Department of Education in
which the Bank, in its role as liquidity supplier to the student loan conduit program, may advance funds to the
student loan conduit. The Bank is committed to fund up to $60,000,000 thousand to the Straight-A Funding,
LLC, which provides liquidity support to the Department of Education’s Asset-Backed Commercial Paper
(ABCP) conduit program. The ABCP is intended to provide support to those lenders that make federally
guaranteed loans to students.

Title IV, the Home Ownership Preservation Entity (HOPE) Fund for Homeowners Act of 2008, of the Housing
and Recovery Act of 2008, authorizes the Secretary of the Treasury to issue HOPE bonds without any limitations
as to the purchaser of the issuance. Due to the cost of issuing special purpose bonds to the public, the Secretary
of the Treasury has decided to issue the HOPE bonds to the Bank. The total outstanding HOPE bonds may not
exceed $300,000,000 thousand. The purchase of HOPE bonds is consistent with the core mission of the Bank.




                                                        2                                             (Continued)
                                       FEDERAL FINANCING BANK
                                     Management’s Discussion and Analysis
                                          September 30, 2009 And 2008



Under a provision in the 1987 enabling legislation for the U.S. Department of Agriculture’s Rural Utilities
Services (RUS) Cushion of Credit Payments Program (cushion of credit), the Bank receives considerably less
interest each year on certain RUS loans that it holds than it is contractually entitled to receive. This provision,
however, did not reduce the amount of interest the Bank owed on its corresponding loans from Treasury. The
shortfall in interest received by the Bank has resulted in substantial deficits in the past. The cumulative losses
from interest credits taken by the RUS, beyond losses that were extinguished by appropriation in a previous year,
totaled $2,318,061 thousand through September 30, 2009. The interest shortfall is recorded on the statement of
operations and changes in net position as legislatively mandated interest credit (contra-revenue to interest on
loans). In September 2008, the Bank prepaid all corresponding loans owed to Treasury that financed the RUS
loans affected by the cushion of credit.

Section 774 of the Agriculture, Rural Development, Food and Drug Administration, and Related Agencies
Appropriations Act of 2006, also known as the Final Maturity Extension Authority, amended the Rural
Electrification Act of 1936 by adding a new section permanently authorizing maturity extensions for
RUS-guaranteed Bank loans. The Final Maturity Extension Authority allows borrowers of loans made by the
Bank and guaranteed by RUS to request an extension of the final maturity of the outstanding principal balance of
their RUS-guaranteed Bank loans. In 2008, as authorized under the Final Maturity Extension Authority, the Bank
extended the final maturity date for two borrowers that participated in the new program, the Oglethorpe Power
Association and North Carolina Electric Membership Corporation.

The Balanced Budget and Emergency Deficit Control Act of 1985, commonly known as
Gramm-Rudman-Hollings Act, the Consolidated Omnibus Budget Reconciliation Act of 1985, and the Federal
Credit Reform Act of 1990 included provisions that have acted as prohibitions and disincentives against the Bank
financing of certain loans that are 100 percent guaranteed by Federal agencies.

Section 6102 of the Food, Conservation, and Energy Act of 2008 reinstated the direct loan program for the RUS
Electric Program, eliminating the borrower’s right to have loans financed by the Bank. Eventually, RUS
anticipates financing new electric loans through the direct loan program instead of financing the loans through
the Bank.

Impact of Economic Conditions

Current economic conditions have had an impact on programs that borrow from the Bank. Certain programs have
borrowed more than they anticipated, which has increased the amount of loans outstanding from the Bank.
Additionally, new legislation passed by Congress has changed and will change the Bank’s asset holdings.

The United States Postal Service (USPS) is an independent establishment of the executive branch of the U.S.
Government, which borrows from the Bank to finance its capital improvements and defray operating expenses.
The USPS’s deficit grew in fiscal year 2009 due to a decline in mail volume, higher retiree health benefit costs,
cost of living adjustments, and higher fuel prices. The USPS deficit is closely monitored by the Bank. On
September 30, 2009, the Congress passed legislation that allows the USPS to reduce its required payments to the
Retiree Health Benefits Fund by $4,000,000 thousand in 2009 to supplement the USPS’s cash flows. Since
Congress has taken effective action to assist USPS, the Bank does not anticipate the USPS to default on its loans
from the Bank.



                                                        3                                             (Continued)
                                       FEDERAL FINANCING BANK
                                    Management’s Discussion and Analysis
                                         September 30, 2009 And 2008



Financial Highlights

Statements of Operations and Changes in Net Position Highlights

The following is a synopsis of the financial performance of the Bank for the fiscal year ended September 30,
2009. Interest on loans of $2,002,157 thousand for the fiscal year ended September 30, 2009 increased compared
to the interest on loans of $1,941,407 thousand for the fiscal year ended September 30, 2008 primarily due to the
increase in the loan portfolio. The legislatively mandated interest credits reduced interest income by $201,087
thousand and $97,998 thousand for the fiscal years ended September 30, 2009 and 2008, respectively, and are
related to RUS “cushion of credit” loans. Revenue from servicing loans of $2,475 thousand for the fiscal year
ended September 30, 2009 decreased from $3,328 thousand for the fiscal year ended September 30, 2008 due to
the maturity of the loans being serviced.

Interest on borrowings of $1,354,593 thousand for the fiscal year ended September 30, 2009 increased from the
interest on borrowings of $1,237,371 thousand for the fiscal year ended September 30, 2008 primarily due to the
increase in the loan portfolio. After the administrative expenses of $6,354 thousand, net income of $444,247
thousand for the fiscal year ended September 30, 2009 decreased from the net income of $603,696 thousand for
the fiscal year ended September 30, 2008.

Statements of Financial Position Highlights

Funds with U.S. Treasury (cash equivalents) amounted to $786,370 thousand at September 30, 2009, which
represents an increase from the September 30, 2008 balance of $744,393 thousand. The increase is due to the net
income for fiscal year 2009.

The loan portfolio (loans receivable) increased $23,087,983 thousand from $38,476,868 thousand at
September 30, 2008 to $61,564,851 thousand at September 30, 2009. The change is primarily the result of a
$3,000,000 thousand increase in short-term loans to the U. S. Postal Service, and new short-term loans of
$17,274,901 thousand to the National Credit Union Administration’s Central Liquidity Fund. The Bank’s net
position increased to $3,347,933 thousand at September 30, 2009 from $2,903,686 thousand at September 30,
2008 primarily as a result of positive earnings.

All of the loans in the Bank’s portfolio are federally guaranteed, except for those of the USPS. The Bank does
not maintain a reserve for loan losses as no future credit-related losses are expected.

The Bank increased its borrowings by $23,164,106 thousand to finance the increased lending activities. In
June 2009, the Bank made repayments to the Civil Service Retirement and Disability Fund administered by the
Office of Personnel Management for $2,078,760 thousand in accordance with the debt maturity schedule.

Performance Highlights

During fiscal year 2009, the Bank processed 1,010 new loan requests. The interest rate was set or reset on 1,808
loans in fiscal year 2009 for new loans and maturity extensions. The Bank processed 34 prepayments and 26,653
loan payments in fiscal year 2009.




                                                       4                                            (Continued)
                                       FEDERAL FINANCING BANK
                                    Management’s Discussion and Analysis
                                         September 30, 2009 And 2008



Management Controls

The Bank completed an in-depth testing of its internal accounting and administrative control procedures in
accordance with OMB Circular No. A-123, Management’s Responsibility for Internal Control, in July 2009.
Additionally, in fiscal year 2006, a private contractor performed a certification and accreditation of the Bank’s
enterprise management system, known as the Loan Management Control System, which is effective for three
years.

Accordingly, we believe that the Bank’s systems of internal accounting and administrative controls fully comply
with the requirements for agency internal accounting and administrative control systems, providing reasonable
assurance that they are achieving the intended objectives.




                                                       5
                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036




                         Independent Auditors’ Report on Financial Statements


Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:

We have audited the accompanying statements of financial position of the Federal Financing Bank (the
Bank) as of September 30, 2009 and 2008, and the related statements of operations and changes in net
position and cash flows for the years then ended (hereinafter referred to as “financial statements”). These
financial statements are the responsibility of the Bank’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Bank’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Federal Financing Bank as of September 30, 2009 and 2008, and the results of its
operations and its cash flows for the years then ended in conformity with U.S. generally accepted
accounting principles.

Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The information in the Management’s Discussion and Analysis and other supplementary
information included in Schedule 1 is presented for purposes of additional analysis and is not required as
part of the financial statements. This information has not been subjected to auditing procedures and,
accordingly, we express no opinion on it.




                                                                            6
                               KPMG LLP, a U.S. limited liability partnership, is the U.S.
                               member firm of KPMG International, a Swiss cooperative.
In accordance with Government Auditing Standards, we have also issued our reports dated November 9,
2009, on our consideration of the Bank’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 9, 2009




                                                      7
                                           FEDERAL FINANCING BANK
                                           Statements of Financial Position
                                            September 30, 2009 and 2008
                                                (Dollars in thousands)


                                  Assets                                        2009         2008
Funds with U.S. Treasury                                                  $     786,370      744,393
Investments held to maturity (fair value of $492,062 and
   $29,542, notes 3 and 6)                                                       492,037       29,535
Loans receivable (notes 4, 6, and 9)                                          61,564,851   38,476,868
Accrued interest receivable                                                      226,591      182,884
Advances to others                                                                   269           92
              Total assets                                                $   63,070,118   39,433,772
                        Liabilities and Net Position
Liabilities:
   Borrowings:
      Principal amount                                                    $   59,259,551   36,036,419
      Plus unamortized premium                                                   228,927      287,953
              Total borrowings (notes 5, 6, and 8)                            59,488,478   36,324,372
  Accrued interest payable                                                      233,647      205,534
  Other liabilities                                                                  60          180
              Total liabilities                                               59,722,185   36,530,086
Loan commitments (note 10)
Net position (note 7)                                                          3,347,933    2,903,686
              Total liabilities and net position                          $   63,070,118   39,433,772


See accompanying notes to financial statements.




                                                          8
                                       FEDERAL FINANCING BANK
                              Statements of Operations and Changes in Net Position
                                   Years ended September 30, 2009 and 2008
                                             (Dollars in thousands)


                                                                               2009          2008
Revenues:
  Interest on loans                                                    $      2,002,157      1,941,407
     Less legislatively mandated interest credit                               (201,087)       (97,998)
              Net interest on loans                                           1,801,070      1,843,409
  Interest on investments                                                            1,649          43
  Revenue from servicing loans                                                       2,475       3,328
              Total revenue                                                   1,805,194      1,846,780
Expenses:
  Interest on borrowings                                                      1,354,593      1,237,371
  Administrative expenses                                                         6,354          5,713
              Total expenses                                                  1,360,947      1,243,084
              Net income                                               $        444,247       603,696
Net position:
  Beginning of year                                                    $      2,903,686      2,365,037
  Net income                                                                    444,247        603,696
  Loss on extinguishment of borrowings treated as
     capital transaction (note 8)                                                      —      (65,047)
  End of year (note 7)                                                 $      3,347,933      2,903,686


See accompanying notes to financial statements.




                                                       9
                                        FEDERAL FINANCING BANK
                                             Statements of Cash Flows
                                     Years ended September 30, 2009 and 2008
                                              (Dollars in thousands)


                                                                                 2009          2008
Cash flows from operations:
  Net income                                                            $        444,247       603,696
  Adjustments to reconcile net income to net cash provided
     by operations:
        Amortization of premium on borrowings                                    (59,026)      (60,158)
        Capitalization of interest receivable                                       (210)         (111)
        Capitalization of interest payable                                       172,466        83,022
        Decrease (increase) in accrued interest receivable                       (43,707)      269,046
        Decrease (increase) in advances to others                                   (177)          566
        (Decrease) increase in accrued interest payable                           28,113      (132,995)
        (Decrease) increase in other liabilities                                    (120)           31
              Net cash provided by operations                                    541,586       763,097
Cash flows from investing activities:
  Investment purchases                                                          (462,502)       (29,535)
  Loan disbursements                                                        (213,610,805)   (95,961,408)
  Loan collections                                                           190,523,032     91,476,773
              Net cash used in investing activities                          (23,550,275)    (4,514,170)
Cash flows from financing activities:
  Borrowings                                                                 214,113,300     95,990,943
  Repayments of borrowings                                                  (191,062,634)   (91,723,591)
              Net cash provided by financing activities                        23,050,666     4,267,352
              Net increase in cash                                                41,977       516,279
Funds with U.S. Treasury – beginning of the year                                 744,393       228,114
Funds with U.S. Treasury – end of the year                              $        786,370       744,393
Supplemental disclosures of cash flow information:
  Interest paid (net of amount capitalized)                             $       1,212,739     1,344,743
Supplemental schedule of noncash investing and financing activities:
  Loss on early extinguishment of borrowings
     treated as capital transaction (note 8)                            $               —       (65,047)


See accompanying notes to financial statements.




                                                       10
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2009 and 2008
                                             (Dollars in thousands)



(1)   Summary of Significant Accounting Policies
      The Federal Financing Bank (the Bank) was created by the Federal Financing Bank Act of 1973
      (12 USC 2281, the Act) as an instrumentality of the U. S. Government and a body corporate under the
      general supervision of the Secretary of the Treasury (the Secretary). The budget and audit provisions of the
      Government Corporation Control Act are applicable to the Bank in the same manner as they are applied to
      other wholly owned government corporations.

      The Bank was established by Congress at the request of the U.S. Department of the Treasury (Treasury), in
      order “to assure coordination of Federal and federally assisted borrowing programs with the overall
      economic and fiscal policies of the U. S. Government, to reduce the cost of Federal and federally assisted
      borrowing from the public, and to assure that such borrowings are financed in a manner least disruptive of
      private financial markets and institutions.” The Bank was given broad statutory authority to finance
      obligations issued, sold, or guaranteed by Federal agencies so that the Bank could meet these debt
      management objectives.

      The Bank is authorized to issue obligations to the public in amounts not to exceed $15,000,000 with the
      approval of the Secretary. Additionally, the Bank is authorized to issue obligations in unlimited amounts to
      the Secretary and, at the discretion of the Secretary, may agree to purchase any such obligations.

      (a)   Basis of Presentation
            The Bank has historically prepared its financial statements in accordance with accounting principles
            generally accepted in the United States of America (GAAP), based on standards issued by the
            Financial Accounting Standards Board (FASB), the private-sector standards-setting body. In
            October 1999, the American Institute of Certified Public Accountants (AICPA) designated the
            Federal Accounting Standards Advisory Board (FASAB) as the standards-setting body for the
            establishment of accounting principles generally accepted in the United States of America with
            respect to the financial statements of Federal government entities. The FASAB has indicated that
            financial statements prepared based upon standards promulgated by the FASB may also be regarded
            as in accordance with GAAP for those Federal entities, such as the Bank, that have issued financial
            statements based upon FASB standards in the past. Accordingly, consistent with historical reporting,
            the Bank’s financial statements are presented in accordance with accounting and financial reporting
            standards promulgated by the FASB.

      (b)   Basis of Accounting
            The financial statements are presented on the accrual basis of accounting. The Bank recognizes loans
            when they are issued and related repayments when they are received. The Bank recognizes
            investments when they are made and investment redemptions when the proceeds are received. The
            Bank recognizes borrowings when they are received and repayments when they are made. In
            addition, the Bank recognizes interest on loans, interest on investments, and revenue from servicing
            loans when they are earned and recognizes interest on borrowings and expenses when they are
            incurred.



                                                       11                                            (Continued)
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2009 and 2008
                                        (Dollars in thousands)



(c)   Funds with U.S. Treasury
      As a government corporation, the Bank maintains a Fund Balance with Treasury (fund
      account 20X4521) and does not hold cash. For the purposes of the statements of cash flows, the
      funds with Treasury are considered cash.

(d)   Investments
      The Bank’s investments consist of investments in U. S. Treasury securities for the Home Ownership
      Preservation Entity (HOPE) Fund. The securities are categorized as held to maturity, because the
      Bank has the ability and intent to hold the securities until maturity. The securities are recorded at par
      value.

(e)   Loans Receivable
      The Bank issues loans to Federal agencies for their own use or to issue loans to private sector
      borrowers, whose loans are guaranteed by the Federal agencies. When a Federal agency has to honor
      its guarantee because a private sector borrower defaults, the Federal agency must obtain an
      appropriation or use other resources to pay the Bank. Loan principal and interest are backed by the
      full faith and credit of the U.S. Government, except for loans to the U.S. Postal Service. The Bank
      has not incurred and does not expect to incur any credit-related losses on its loans.

(f)   Interest on Loans
      The Bank’s general policy is to capture the liquidity premium between Treasury securities and the
      private sector lending rates, and to charge a rate that reflects the risk inherent in a borrower or
      transaction, when such a rate will accomplish a broader goal. The income resulting from the interest
      spread covers the administrative expenses of the Bank, and any surplus is transferred to the
      Treasury’s General Fund. Under amendments to the Federal Credit Reform Act, effective October 1,
      1998, while the Bank is permitted to charge a spread on new lending arrangements with
      government-guaranteed borrowers, the margin is not retained by the Bank, but rather is retained by
      the loan guarantor. In the event that this results in the Bank being unable to fund its administrative
      expenses related to these loans, the Federal Credit Reform Act, as amended, states that the Bank may
      require reimbursement from loan guarantors.

(g)   Capitalized Interest
      In accordance with their loan agreements with the Bank, the General Services Administration (GSA),
      Historically Black Colleges and Universities (HBCU), and Veteran Administration Transitional
      Housing (VATH) have the option of deferring payments of interest on their loans until future
      periods. When GSA, HBCU, or VATH elect, in advance, to defer interest payments, the accrued
      interest is recorded as capitalized interest receivable and added to the respective loan balance by the
      Bank. The Bank correspondingly capitalizes the interest payable on its related borrowings.




                                                  12                                              (Continued)
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2009 and 2008
                                        (Dollars in thousands)



(h)   Premium on Borrowings
      The Bank amortizes the premium on borrowings using the effective-interest method. The
      amortization is recorded as part of interest on borrowings on the statements of operations and
      changes in net position.

(i)   Legislatively Mandated Interest Credit
      In prior years, the Bank purchased certificates of beneficial ownership (i.e., loans reported as loans
      receivable on the statement of financial position) from the U.S. Department of Agriculture’s Rural
      Utilities Services (RUS). RUS used the funds received from the Bank to issue loans to nonfederal
      entities, specifically private utility companies. In 1987, Congress passed legislation (i.e., 7 USC Sec.
      940c – Cushion of Credit Payments Program) that required RUS to develop and promote a program
      to encourage private utility companies to voluntarily make deposits into cushion of credit accounts
      established within RUS. The legislation also indicated that private utility companies may reduce the
      balance of their cushion of credit account only if the reduction is used to make scheduled payments
      on loans received from RUS. In accordance with the legislation, the private utility companies accrue
      interest at the higher of 5% per annum or the weighted average rate of the certificates of beneficial
      ownership on cash deposited into the cushion of credit accounts with RUS. The legislation also
      indicated that RUS shall receive an interest credit from the Bank equal to the amount of interest RUS
      pays to the private utility companies. The Bank records the interest credit in the period the cost is
      incurred as a legislatively mandated interest credit (contra-revenue to interest on loans) in the
      statements of operations and changes in net position.

(j)   Revenue from Servicing Loans
      The Bank charges certain RUS borrowers a loan service fee that is reported as revenue from
      servicing loans on the statements of operations and changes in net position. The Bank’s loan
      servicing fee is equal to one-eighth of one percent more than the contractual interest rate with
      Treasury.

(k)   Administrative Expenses
      The Bank is subject to the general supervision and direction of the Secretary. As provided by law,
      the Secretary acts as chairman of the board of directors. Employees of Treasury’s Departmental
      Offices perform the Bank’s management and accounting functions; its legal counsel is the General
      Counsel of the Treasury. The Bank reimburses Treasury for the facilities and services it provides.
      The amounts of such reimbursements are reported as administrative expenses in the statements of
      operations and changes in net position.

(l)   Net Position
      The Bank can borrow from Treasury to meet its immediate cash needs and can also seek
      appropriations from Congress to make up for accumulated losses that will not be met by income.




                                                  13                                             (Continued)
                                       FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2009 and 2008
                                              (Dollars in thousands)



      (m)   Loan Commitments
            The Bank recognizes loan commitments when the Bank and the other parties fully execute the
            promissory notes and reduces loan commitments when the Bank issues loans or when the
            commitments expire. Most obligations of the Bank give a borrower the contractual right to a loan or
            loans immediately or at some point in the future. The Bank limits the time available for a loan under
            an obligation, where applicable.

      (n)   Management’s Use of Estimates
            The preparation of financial statements in conformity with GAAP requires management to make
            estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
            contingent assets and liabilities at the date of the financial statements and the reported amounts of
            income and expenses during the reporting period. Actual results could differ from those estimates.

      (o)   Tax-Exempt Status
            The Bank is exempt from tax in accordance with Section 11(a) of the Federal Financing Bank Act of
            1973 (12 USC 2281).

      (p)   Related Parties
            The Bank conducts most of its financial transactions with other Federal entities, and therefore, the
            financial statement balances that represent transactions with other Federal entities include all assets;
            liabilities, except borrowings from the public of $10 as of September 30, 2009 and 2008; revenues;
            and expenses.

(2)   New Accounting Pronouncements
      Effective September 15, 2009, the Bank adopted FASB issued SFAS No. 168, The FASB Accounting
      Standards Codification and the Hierarchy of Generally Accepted Accounting Principles. SFAS No. 168
      establishes the FASB Accounting Standards Codification (ASC) as the sole source of authoritative
      accounting principles recognized by the FASB to be applied by nonpublic entities in the preparation of
      financial statements in conformity with GAAP (the GAAP hierarchy).

      Effective October 1, 2008, the Bank adopted FASB ASC 820, Fair Value Measurements and Disclosures
      (precodification FASB SFAS No. 157, Fair Value Measurements, as amended). FASB ASC 820 defines
      fair value, establishes a consistent framework for measuring fair value in accordance with GAAP, and
      expands disclosure requirements about fair value measurements. FASB ASC 820 also requires that the
      valuation techniques used to measure fair value maximize the use of observable inputs and minimize the
      use of unobservable inputs in accordance with the following fair value: quoted prices in active markets for
      identical assets or liabilities (Level 1 measurements), significant other observable inputs (Level 2
      measurements), and significant unobservable inputs (Level 3 measurements). The fair value measurement
      is assigned an overall input level based on the lowest level input that is significant to the fair value
      measurement in its entirety.



                                                        14                                             (Continued)
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2009 and 2008
                                        (Dollars in thousands)



Implementation of FASB ASC 820 did not affect the Bank’s financial statement amounts in fiscal year
2009, as these amounts were not required to be reported at fair value. However, the Bank elected to include
the fair value hierarchy disclosures established under FASB ASC 820 in the fair value note disclosure
required by FASB ASC 825, Financial Instruments (precodification FASB SFAS No.107, Disclosures
about Fair Value of Financial Instruments). The expanded disclosures are included in note 6.

The optional provisions of FASB ASC 825, Financial Instruments, (precodification FASB SFAS No. 159,
The Fair Value Option for Financial Assets and Financial Liabilities) became effective for fiscal year
2009. These optional provisions give the Bank the irrevocable option to report most financial assets and
liabilities at fair value on an instrument-by-instrument basis, with changes in fair value reported in
earnings. The Bank elected to not measure at fair value the Bank’s financial assets and liabilities under the
optional provisions of the FASB ASC that became effective in fiscal year 2009.

Effective June 15, 2009, the Bank adopted FASB ASC 855, Subsequent Events (precodification FASB
SFAS No. 165, Subsequent Events). FASB ASC 855 establishes general standards of accounting for and
disclosure of events that occur after the balance sheet date but before financial statements are issued or are
available to be issued. FASB ASC 855 defines the period after the balance sheet date during which
management shall evaluate events or transactions that may occur for potential recognition or disclosure,
the circumstances under which an organization shall recognize events occurring after the balance sheet
date and the disclosures that an organization shall make about those events or transactions. FASB ASC 855
defines two types of subsequent events. The first type consists of events or transactions that provide
additional evidence about conditions that existed at the date of the balance sheet, including the estimates
inherent in the process of preparing financial statements (i.e., nonrecognized event).

Management evaluated all events and transactions that occurred after September 30, 2009 through
November 9, 2009, the date we issued these financial statements.




                                                  15                                             (Continued)
                                         FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2009 and 2008
                                             (Dollars in thousands)



(3)   Investments Held to Maturity (the HOPE bond transaction)
      The Secretary is authorized to issue up to $300,000,000 HOPE bonds under the HOPE for Homeowners
      Act of 2008 and the Bank will purchase the HOPE bonds issued by the Secretary. The Bank purchased
      $462,502 in bonds at par value in fiscal year 2009 and one bond at par value of $29,535 in fiscal year
      2008, with floating interest rate to be reset quarterly. The interest rate is 0.183% and 1.6% as of
      September 30, 2009 and 2008, respectively. The bonds have 30-year maturity dates starting on August 27,
      2038 and ending on July 15, 2039. The HOPE bonds are reported as investments held to maturity, and the
      related interest receivable is reported as accrued interest receivable in the Bank’s statements of financial
      position.

      The carrying amount, unrealized holding gains, and fair value of the HOPE bonds at September 30, 2009
      and 2008 were as follows:

                  September 30, 2009                      Carrying         Unrealized         Fair
       Investments held to maturity                       amount          holding gains      value
        U.S. Treasury Nonmarketable Securities –
          HOPE Bonds                                 $    492,037              25           492,062
                                 Total               $    492,037              25           492,062

                  September 30, 2008                      Carrying         Unrealized         Fair
       Investments held to maturity                       amount          holding gains      value
        U.S. Treasury Nonmarketable Securities –
          HOPE Bonds                                 $        29,535           7             29,542
                                 Total               $        29,535           7             29,542

      The Bank borrowed funds from Treasury at the same terms to purchase the HOPE bonds.

(4)   Loans Receivable
      Loans receivable represent the outstanding balances for loans to agencies. The Bank has the ability and
      intends to hold loans receivable until maturity or payoff. At September 30, 2009, the Bank had outstanding
      loans receivable of $61,564,851, with interest rates ranging from 0.030% to 16.183%, and maturity dates
      from October 1, 2009 to July 17, 2045. At September 30, 2008, the Bank had outstanding loans receivable
      of $38,476,868, with interest rates ranging from 0.155% to 16.183%, and maturity dates from October 1,
      2008 to July 17, 2045.




                                                         16                                           (Continued)
                                      FEDERAL FINANCING BANK
                                        Notes to Financial Statements
                                        September 30, 2009 and 2008
                                             (Dollars in thousands)



      Loans receivable at September 30, 2009 and 2008, consist of the following:

                                    Agency                                  2009              2008
      Rural Utilities Service, Department of Agriculture          $       25,391,164        22,693,499
      Credit Liquidity Fund, National Credit Union Administration         18,384,062         1,109,161
      U.S. Postal Service                                                 10,200,000         7,200,000
      Rural Utilities Service, Department of Agriculture
        certificates of beneficial ownership                               3,047,025         3,632,550
      General Services Administration                                      2,037,215         2,097,771
      Department of Energy                                                   907,680                 –
      Low Rent Public Housing, Department of
        Housing and Urban Development                                       586,977            691,412
      Foreign Military Sales, Department of Defense                         545,376            680,365
      Historically Black Colleges and Universities, Department
        of Education                                                        453,298            338,466
      Ship Leasing, Department of Defense, Navy                                   –             16,623
      Small Business Administration                                           5,379             10,046
      Veteran Administration Transitional Housing Program                     4,889              4,940
      Federal Railroad Administration, Department of
        Transportation                                                         1,786             2,035
                    Total loans receivable                            $   61,564,851        38,476,868

      The loans receivable due within one year are $25,709,953 and $9,611,426 as of September 30, 2009 and
      2008, respectively.

(5)   Borrowings
      Under the FFB Act, the Bank may, with the approval of the Secretary, borrow without limit from the
      Treasury. Repayments on Treasury borrowings match the terms and conditions of corresponding loans
      made by the Bank and bear interest at the respective rate as determined by the Secretary. The Bank’s
      borrowings are repayable on demand. At September 30, 2009, the Bank had Treasury borrowings of
      $47,338,301, with interest rates ranging from 0.020% to 10.83%, and maturity dates from October 1, 2009
      to July 17, 2045. At September 30, 2008, the Bank had Treasury borrowings of $22,036,409, with interest
      rates ranging from 0.030% to 13.759%, and maturity dates from October 1, 2008 to July 17, 2045.

      Additionally, at September 30, 2009 and 2008, the Bank had borrowings of $11,921,240 and $14,000,000
      and an associated unamortized premium of $228,927 and $287,953, respectively, from the Civil Service
      Retirement and Disability Fund (CSR&DF), which is administered by the Office of Personnel
      Management (OPM). At September 30, 2009 these borrowings are at stated interest rates ranging from
      4.625% to 5.250%, effective interest rate of 4.125%, and with maturity dates ranging from June 30, 2010
      to June 30, 2019. At September 30, 2008, these borrowings were at stated interest rates ranging from
      4.625% to 5.625%, effective interest rate of 4.125%, and with maturity dates ranging from June 30, 2009
      to June 30, 2019. Borrowings from the public amounted to $10 at September 30, 2009 and 2008.

                                                      17                                         (Continued)
                                       FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2009 and 2008
                                              (Dollars in thousands)



      The scheduled principal repayments below reflect maturities of the Bank’s borrowings and do not
      necessarily match the maturities of assets in the Bank’s loan portfolio. Scheduled principal repayments of
      borrowings as of September 30, 2009 are as follows:


                          Repayment date                                         Amount
                              2010                                        $     27,267,765
                              2011                                               1,880,198
                              2012                                               2,218,084
                              2013                                               1,538,622
                              2014                                               1,870,898
                              2015 and thereafter                               24,483,984
                                         Total principal payments               59,259,551
                                         Plus unamortized premium                 228,927
                                         Total borrowings                 $     59,488,478

(6)   Fair Value of Financial Instruments and Interest Rate Volatility
      (a)   Fair Value Hierarchy
            The accounting standards establish a fair value hierarchy that prioritizes the inputs to valuation
            techniques used to measure fair value. The hierarchy gives the highest priority to unadjusted quoted
            prices in active markets for identical assets or liabilities (Level 1 measurements) and the lowest
            priority to measurements involving significant unobservable inputs (Level 3 measurements). The
            three levels of the fair value hierarchy are as follows:

            •   Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or liabilities
                that the Bank has the ability to access at the measurement date.
            •   Level 2 inputs are inputs other than quoted prices included within Level 1 that are observable for
                the asset or liability, either directly or indirectly.
            •   Level 3 inputs are unobservable inputs for the asset or liability.

            The level in the fair value hierarchy within which a fair value measurement in its entirety falls is
            based on the lowest level input that is significant to the fair value measurement in its entirety.

            The Bank does not hold any financial instruments that are measured at fair market value on a
            recurring basis or for which the fair value option has been elected at September 30, 2009.

            All the fair values shown in this note are performed using Level 2 inputs at September 30, 2009. The
            Bank’s fair value measurements maximize the use of observable inputs and do not use significant
            unobservable inputs (Level 3).




                                                        18                                             (Continued)
                                   FEDERAL FINANCING BANK
                                       Notes to Financial Statements
                                       September 30, 2009 and 2008
                                          (Dollars in thousands)



        The financial statements as of and for the year ended September 30, 2009 do not include any
        nonrecurring fair value measurements relating to assets or liabilities for which the Bank has adopted
        the provisions of FASB ASC 820.

(b)     Fair Value of Financial Instruments
        The following table presents the carrying amounts and estimated fair values of the Bank’s financial
        instruments at September 30, 2009 and 2008. The fair value of a financial instrument is the amount
        that would be received to sell an asset or paid to transfer a liability in an orderly transaction between
        market participants at the measurement date.

                                                           2009                                 2008
                                                                  Fair value
                                               Carrying            (Level 2         Carrying             Fair
                                               amount               inputs)         amount               value
      Financial assets:
        Investments held to maturity      $      492,037              492,062          29,535              29,542
        Loans receivable                      61,564,851           65,765,105      38,476,868          42,265,527
      Financial liabilities:
        Borrowings                        $ 59,488,478             61,626,247      36,324,372          37,817,803

        The carrying amounts shown in the table are included in the statements of financial position under
        the indicated captions.

        The fair values of the financial instruments shown in the above table as of September 30, 2009
        represent management’s best estimates of the amounts that would be received to sell those assets or
        that would be paid to transfer those liabilities in an orderly transaction between market participants
        at that date. Those fair value measurements maximize the use of observable inputs.

        The following methods and assumptions were used to estimate the fair value of each class of
        financial instruments:

              Funds with U.S. Treasury: The carrying amount approximates fair value because of the liquid
              nature of the funds with Treasury.
              Loans Receivable and Investments: The fair value is determined using discounted cash flow
              analyses based on contractual repayment terms. The Bank’s loans receivable and interest are
              backed by the full faith and credit of the U.S. Government, except for loans to the U.S. Postal
              Service. As such, the Bank’s assets are the equivalent of Treasury securities. The discount
              rates used in the loans receivable and investment analysis are based on interest rates currently
              being offered by the Bank on loans of similar maturity and other characteristics. The Bank
              obtains the discount rates from the daily Treasury New Issue Curve (TNIC), which is created
              daily with an interest rate for each day from 1 month to 30 years, based on the bid yields that


                                                    19                                              (Continued)
                                 FEDERAL FINANCING BANK
                                   Notes to Financial Statements
                                   September 30, 2009 and 2008
                                       (Dollars in thousands)



            day for Treasury securities traded in the public markets. The TNIC yields represent Treasury’s
            best estimate of its own cost of borrowing for any given term on that business day.
            Borrowings: The fair value is determined using discounted cash flow analyses based on
            contractual repayment terms. The discount rates used in the borrowings analysis are based on
            interest rates of current borrowings from Treasury using similar maturity and other
            characteristics. The Bank obtains the discount rates from the daily TNIC.
            Advances to Others, Accrued Interest Receivable, Accrued Interest Payable, and Other
            Liabilities: The carrying amount of advances to others, accrued interest receivable, accrued
            interest payable, and other liabilities approximate fair value as they represent the amounts
            expected to be realized or paid and are current assets and liabilities.
(c)   Interest Rate Volatility
      The fair value of the Bank’s loans receivable, investments, and borrowings changes in response to
      the interest rate volatility that results from the current economic conditions, market perception, and
      expectations. However, because the interest rates and maturities of loans receivable, investments,
      and borrowings are very similar, the fair market values of both assets and liabilities increase or
      decrease in the same direction and in similar amounts.




                                                 20                                            (Continued)
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2009 and 2008
                                             (Dollars in thousands)



(7)   Net Position
      At September 30, 2009 and 2008, the net position includes the following:

                                                                                 2009               2008
      Transfers to Treasury                                            $    (1,682,847)          (1,682,847)
      Cumulative results of operations and gains/losses on
        early extinguishment of borrowings treated as capital
        transactions                                                         5,030,780           4,586,533
                     Net position                                      $     3,347,933           2,903,686

      Included in the net position activity is income the Bank earned prior to fiscal year 2000 that the Bank
      transferred to Treasury.

(8)   Loss on Extinguishment of Borrowings Treated as Capital Transactions
      The Bank did not make any early repayment of debt in fiscal year 2009. In 2008, the Bank made early
      repayments to the Treasury totaling $1,069,358, resulting in a net loss of $65,047. The repayment
      represents a capital transaction, and the loss with Treasury is reported as a loss on extinguishment of
      borrowings treated as capital transaction on the statements of operations and changes in net position.

(9)   Capitalized Interest
      Capitalized interest receivable was approximately $12,479 and $21,709, and the related capitalized interest
      payable was $231,154 and $78,572 as of September 30, 2009 and 2008, respectively. Capitalized interest
      receivable and payable are reported as part of the loans receivable and borrowing balances, respectively, on
      the statements of financial position.




                                                       21                                            (Continued)
                                     FEDERAL FINANCING BANK
                                       Notes to Financial Statements
                                       September 30, 2009 and 2008
                                           (Dollars in thousands)


(10) Loan Commitments
    The Bank makes loan commitments to extend credit to Federal program agencies based on the loan
    agreements executed between the parties. The loan commitments are not reported on the statements of
    financial position and generally have fixed expiration dates or other termination clauses. Since many of the
    loan commitments are expected to expire without being completely drawn upon, the total loan commitment
    amounts do not necessarily represent future cash requirements. The Bank uses the same credit policies in
    making loan commitments as it does for loans receivable reported on the statements of financial position.
    The Bank funds the loan commitments with its borrowing authority from the Secretary. There is no
    exposure or credit risk related to these commitments.

    The contract amounts and remaining loan commitments by program agency as of September 30, 2009, are
    as follows:

                                                                        Contract           Remaining loan
                              Agency                                    amounts             commitments

     Department of Education – FFEL Conduit                      $       60,000,000            60,000,000
     National Credit Union Administration – CLF                          25,000,000            14,997,000
     Rural Utilities Service, Department of Agriculture                  18,328,219             8,158,221
     U.S. Postal Service                                                 15,000,000             8,000,000
     Department of Energy                                                 6,472,000             5,564,320
     Historically Black Colleges and Universities,
       Department of Education                                              505,560               214,490
     General Services Administration                                        203,200                19,754

                   Total commitments                             $     125,508,979             96,953,785




                                                     22
                                     FEDERAL FINANCING BANK
                              Other Supplementary Information – Schedule 1
                      Unaudited – See Accompanying Independent Auditors’ Report
                                       September 30, 2009 and 2008
                                           (Dollars in thousands)



In prior years, the Federal Financing Bank (Bank) purchased certificates of beneficial ownership (i.e., loans
reported as loans receivable on the statement of financial position) from the Rural Utilities Service (RUS),
a component of the U.S. Department of Agriculture. RUS used the funds received from the Bank to issue
loans to nonfederal entities, specifically private utility companies. In 1987, Congress passed legislation
(i.e., 7 USC Sec. 940c – Cushion of Credit Payments Program) that required RUS to develop and promote
a program to encourage private utility companies to voluntarily make deposits into cushion of credit
accounts established within RUS. The legislation also indicated that a private utility company may reduce
the balance of its cushion of credit account only if the reduction is used to make scheduled payments on
loans received from RUS. In accordance with the legislation, the private utility companies accrue interest at
a rate of 5% per annum or the weighted average rate of the certificates of beneficial ownership on cash
deposited into the cushion of credit accounts with RUS. The legislation also indicated that RUS shall
receive an interest credit from the Bank equal to the amount of interest RUS pays to the private utility
companies. The Bank records the interest credit in the period the cost is incurred as a legislatively
mandated interest credit (contra-revenue to interest on loans) in the statements of operations and changes in
net position. As of September 30, 2009, the outstanding principal balance of the 13 RUS loans subject to
the certificates of beneficial ownership (CBO) legislation totaled $3,047,025, with interest rates ranging
from 7.755% to 15.325%, and maturity dates ranging from 2010 to 2021. In October 1998, the Bank
received an appropriation that off-set the RUS-CBO interest credits by $917,699.

The interest credits that the Bank has provided RUS-CBO through September 30, 2009 are as follows:

                                   Fiscal year                  Interest credits

                          1988–2004                       $         1,442,460
                          2005                                        244,420
                          2006                                        234,266
                          2007                                         97,830
                          2008                                         97,998
                          2009                                        201,087

                          Total interest credits                    2,318,061

                          Less appropriation                        (917,699)

                          Total                           $         1,400,362




                                                     23
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:

We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2009 and 2008 and the related statements of operations and changes in net position and cash
flows for the years then ended (hereinafter referred to as “financial statements”), and have issued our report
thereon dated November 9, 2009.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the Bank is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2009 audit, we considered the Bank’s internal control over
financial reporting by obtaining an understanding of the design effectiveness of the Bank’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the financial statements. To achieve this purpose, we did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The
objective of our audit was not to express an opinion on the effectiveness of the Bank’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of the Bank’s internal
control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in the internal control over financial
reporting that might be deficiencies, significant deficiencies, or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis.

In our fiscal year 2009 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above.




                                                                         24
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
We noted a certain additional matter that we have reported to Bank management in a separate letter dated
November 9, 2009.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 9, 2009




                                                  25
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:

We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2009 and 2008, and the related statements of operations and changes in net position and
cash flows for the years then ended (hereinafter referred to as “financial statements”), and have issued our
report thereon dated November 9, 2009.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the Bank is responsible for complying with laws, regulations, and contracts applicable
to the Bank. As part of obtaining reasonable assurance about whether the Bank’s financial statements are
free of material misstatement, we performed tests of the Bank’s compliance with certain provisions of
laws, regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws, regulations, and contracts applicable to
the Bank. However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 9, 2009




                                                                         26
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
